Q. Use of Card and Account by Others: If I so request, you may issue cards
not only to me, but also to others who will only be authorized users of the
Account. Such additional cards may be imprinted either with my name
or with the names of the authorized user(s). I agree that if I permit another
person to use my Account (whether or not I have told the Credit Union
that such person will be using my Account), with or without the Card, PIN,
through issuance of a check from my Business Checking Account that creates an overdraft, or Convenience Check(s), that I will pay for any Purchases
or Advances made by such person(s) on my Account and any finance or
other charges imposed on those Purchases and Advances, even if the
amount exceeds my permission.
If I have authorized someone to use my Account and I want to terminate
that person’s access, I agree that I must notify you in writing; if possible,
enclosing the Card(s) used by that person, cut in two. After you have
received the notice that this individual is no longer authorized, even if the
card is not recovered, my liability ceases for future charges made to the
account. I may request you to cancel all cards and establish a new Account
for me. If I request you to terminate the use of my PIN by another person,
you will cancel my PIN and issue a new PIN.
R. Transfer of Account: I cannot transfer or assign my Account to any other
person or Trust.
S. Change of Address: I will advise you promptly if I change my mailing
address. All written notices and statements from you to me will be considered given when placed in the United States mail, postage prepaid, and
addressed to me at my current address as it appears in your records.
T. Irregular Payments: You may accept late payments or partial payments, or
checks, drafts or money orders marked “Payment in Full” without losing any
of your rights under this Agreement.
Cosigners-Guarantors. A person who signs this contract even though he
or she may not be able to borrow under it is called a “cosigner-guarantor”.
A “cosigner-guarantor” who signs this contract is liable to you for all loans
and advances we make under the contract from the time he or she signs it
until those loans are paid in full, no matter how long it takes.
If a “cosigner-guarantor” wants to stop his or her responsibility for loans
and advances under this contract, the person must give you a written
notice telling you that. Then the person won’t be responsible for any new
loans and advances made after you received the notice. But, of course,
he or she stays liable for the loans and advances made before you got the
notice.
U. Amendments: You may change any part of this Agreement at any time, as
long as, when applicable, you give me advance written notice as required
by law. Any change in terms will apply to my outstanding balance existing
as of the effective change date as well as to all charges made after that
date.

X. Automatic Payment Option: If I have requested this optional service, you
will automatically transfer the amount of the payment requested from my
designated Credit Union account. The payment option can be designated
by me as one of the following: (1) Full Payment; (2) Minimum Periodic
Payment; or, (3) a specified dollar amount. If the amount I have designated
for payment is greater than the amount of available funds being on deposit
on the day of the transfer and the transfer has been made, the transfer
will be reversed. If I make additional payments during the billing cycle, the
automatic transfer may still take place on the statement closing date. You
may cancel this service if the transfers are not honored because of insufficient and/or unavailable funds in my deposit account and you will notify me
of this action. I may cancel this service at any time, however I understand
that one more transfer(s) may occur if I do not provide sufficient notice for
the Credit Union to input the change.
Y. Liability for Unauthorized Use: I may be liable for the unauthorized use
of my Card. I will not be liable for any unauthorized use that occurs after
I notify Payment Systems for Credit Unions orally, of the loss, theft or
possible unauthorized use. In any case, my liability will not exceed $50.00.
I may report a lost or stolen Card by calling 1-(800) 449-7728.
Z. Lost and Stolen Cards: If I report my Card lost or stolen as provided in
paragraph Y, then recover or find my Card and fail to notify you immediately
of the recovery at 1-800 449-7728, I agree to pay you the amount of any
reward previously paid by you to a retail merchant to recover the Card I
reported as lost or stolen.

My Rights and Your Responsibilities After You
Received My Written Notice
You must acknowledge my letter within 30 days, unless you have corrected
the error by then. Within 90 days, you must either correct the error or explain
why you believe the monthly statement was correct.
After you receive my letter, you cannot try to collect any amount I question, or
report me as delinquent. You can continue to bill me for the amount I question,
including finance charges, and you can apply any unpaid amount against my
maximum credit limit. I do not have to pay any questing amount while you are
investigating, but I am still obligated to pay the parts of my monthly statement
that are not in question.
If you find that you made a mistake on my monthly statement, I will not have to
pay any finance charges related to any questioned amount. If you didn’t make
a mistake, I may have to pay finance charges, and I will have to make up any
missed payments on the questioned amount. In either case, you will send me
a statement of the amount I owe and the date that is due.
If I fail to pay the amount that you think I owe, you may report me as
delinquent. However, if your explanation does not satisfy me and I write to
you within ten days telling you that I still refuse to pay, you must tell anyone
you report me to that I have a question about my monthly statement. And you
must tell me the name of anyone you reported me to. You must tell anyone
you reported me to that the matter has been settled between us when it finally
is.

VISA Business Credit Card Agreement,
Overdraft Protection Agreement, and
Truth In Lending Disclosure Statement
Effective June 1, 2015
This is your Cardholder Agreement with Provident Credit Union which outlines
the terms to which you agree by requesting, receiving, signing, using or
authorizing another to sign and use, any Credit Card, PIN, Credit Account, or
other credit devices issued to you here under. This Agreement covers your
VISA Platinum Business Card. Please read this agreement and keep it for your
records.
In this Agreement, the word “Account” means the Credit Card Account
opened pursuant to this Agreement, including use of your Card, PIN or
Loan Advance Checks. “Card” means one or more cards and “PIN” means
Personal Identification Number issued with respect to the Account. The words
“I,” “me,” “my” which also mean “we,” “us” and “our,” if more than one person,
mean the person or persons who use or authorize the use of the VISA credit
card or sign an application for a VISA credit card. The words “you,” “your,”
“yours” and “credit union” mean Provident Credit Union or its authorized
agents.

AA. Other Provisions: Each of us who signed the Application and/or requested the Account or use the Account are individually and jointly obligated for
all payments due under this Agreement. The Account has been applied
for, considered, approved and issued in the State of California and all
extensions of credit are being made from the State of California. I agree
that this Agreement shall be governed by and interpreted under California
and Federal Law. If any part of this Agreement is not valid, all other parts
will remain enforceable.

If you don’t follow these rules, you can’t collect the first $50.00 of the questioned amount, even if my monthly statement was correct.
If I have a problem with the quality of property or services that I purchased
with a credit card, and I have tried in good faith to correct the problem with the
merchant, I may have the right not to pay the remaining amount due on the
property or services. There are two limitations on this right:

1. To obtain cash loans (“Cash Advances”) up to my maximum credit limit
from financial institutions that accept a VISA credit card;

My Billing Rights—Keep This Notice for Future Use

1. I must have made the purchase in my home state or, if not within my home
state, within 100 miles of my current mailing address, and,

3. By making withdrawals with this Card at an automated teller machine;

This notice contains important information about my rights and your
responsibilities under the Fair Credit Billing Act.
I Should Notify You In Case of Errors
or Questions About My Monthly Statement
If I think my monthly statement is wrong, or if I need more information about
a transaction on my monthly, I should write you on a separate sheet at the
address listed on my monthly statement. I should write you as soon as
possible. You must hear from me no later than 60 days after you sent me the
first statement on which the error or problem appeared. I can telephone you,
but doing so will not preserve my rights.

Special Rules for Credit Card Purchases

2. The purchase price must have been more than $50.00.
These limitations do not apply if you own or operate the merchant, or if you
mailed me the advertisement for the property or services.

• My full name and account number

W. Skip Payment: At your option, you may not require me to make a Minimum Payment during certain designated billing cycles. If I do not make
my Minimum Payment as provided in the Agreement, I understand you
will continue to apply Finance Charges to my Account. Beginning with the
billing cycle following a skip payment, I agree that all of the provisions of
this Agreement shall apply.

If I have authorized you to pay my card statement automatically from a Credit
Union account, I can stop the payment on any amount I think is wrong. To
stop the payment, my letter must reach you three business days before the
automatic payment is scheduled to occur.

2. By use of pre-printed convenience checks that you may issue to me;
4. By granting merchants telephonic or internet authorization to charge
products or services to my account; or,
5. By using my Card to charge phone calls.
6. By issuing checks or drafts or the accrual of any charges against my
business checking account with Provident Credit Union in excess of its
balance (if overdraft feature is available). Advances made by automatic
transfer of funds directly into my pre-designated checking account(s)
may be in multiples of $100.00 or in the amount of the overdraft depending on which option is available.
B. Maximum Credit Limit: You will provide me with notice of my maximum
credit limit, and I agree you may change my limit at any time. I agree never
to use my Card when the use will exceed my maximum credit limit. I also
agree that you are not obligated to extend to me credit for an amount that

In my letter, I must give you the following information:

V. Cancellation: I can cancel my Account at any time by returning to you
my Card, along with a letter requesting that you cancel my Account. You
may cancel this Agreement at any time. However, my obligation under this
Agreement and any charges made under it prior to cancellation will continue
to apply until I have paid you all the money I owe on the Account.

A. How to Use this Account: I can purchase or lease goods and services
(“Purchases”) from a merchant up to my maximum credit limit by presenting my VISA credit card (“Card”) and signing a sales slip for the amount of
the Purchase. I may also use my card:

• The dollar amount of the suspected error

M-114262

• I must describe the error and explain, if I can, why I believe there is an error.
If I need more information, I should describe the item I am not sure about.

© 6/15 PCU ID 12723

would make my outstanding balance exceed my maximum credit limit, or
for any amount if my outstanding balance is already over the maximum
credit limit. Any increases in my maximum credit limit I request may require
that I make a written application for your approval. I will pay any amounts
that exceed my maximum credit limit upon demand. You may re-evaluate
my financial condition if I request a higher credit limit, or at any other time,
and this may include obtaining a current credit bureau report or screening,
and/or asking me for current financial information. Based on such a review,
you may immediately increase, reduce or even revoke my Account without
prior written notice.
C. Monthly Statement: If I have an outstanding debit or credit New Balance
of $1.00 or more, or if there is any Finance Charge imposed during a
billing cycle, you will send me a statement. I agree to pay you for all
Purchases, Cash Advances, fees and charges, if any, and Finance
Charges on my Account, all payable in United States dollars. Payment
checks must be drawn on a financial institution or other entity domiciled in
the United States.
Posting of my payment will be delayed if I present you a check drawn on a
non United States domiciled financial institution or entity. The payment will
not be credited to my Account until the funds have been collected in
United States dollars. I agree to allow the Credit Union to debit my account
for any collection and processing fees associated with handling this
payment.
D. Finance Charges: You will impose Finance Charges as follows:
Purchases
1. A Finance Charge is imposed on purchases (except as referred to in
paragraph 3 below) from the date of posting to my Account to the date
of repayment.
2. For each billing cycle:
a) You multiply the Monthly Periodic Rate times the Average Daily Balance
of Purchases. The Average Daily Balance is the sum of the daily unpaid
balances of purchases on each day of the billing cycle covered by my
current billing statement divided by the number of days in the billing
cycle. Such unpaid balances are determined by deducting payments
and credits applied against such unpaid balances and by adding new
purchases, unpaid finance charges, fees and other charges, in each
case, as of the date posted to my Account.
b) You multiply the Monthly Periodic Rate times the Average Daily Balance
of Previous Billing Cycle Purchases. The Average Daily Balance of
Previous Billing Cycle Purchases is the sum of the unpaid balances
of purchases itemized on my last billing statement on each day of the
billing cycle covered by my last billing statement divided by the number
of days in the billing cycle. Such unpaid balances are determined by
deducting payments and credits applied against such unpaid balances
and by adding new purchases, unpaid finance charges, fees and other
charges, in each case, as of the date posted to my Account.
c) You add the amounts determined under (a) and (b) to obtain the
Finance Charge on purchases.
3. A Finance Charge is not imposed on:
a) New purchases posted during a billing cycle if: (1) I paid the New
Balance shown on the billing statement covering the preceding billing
cycle by the Payment Due Date shown on the billing statement or such
New Balance was zero and (2) I pay the New Balance shown on the

billing statement itemizing the new purchases by the Payment Due Date
shown on that billing statement.
b) Old purchases previously posted for a billing cycle during which I pay
the New Balance shown on the billing statement covering the preceding
billing cycle by the Payment Due Date shown on that billing statement.
Cash Advances
1. A Finance Charge is imposed on cash advances from the date of
transaction to the date of repayment.
2. For each billing cycle:
a) You multiply the Monthly Periodic Rate times the Average Daily Balance
of Cash Advances. The Average Daily Balance is the sum of the daily
unpaid balances of cash advances on each day of the billing cycle
covered by my current billing statement divided by the number of days
in the billing cycle. Such unpaid balances are determined by deducting
payments and credits applied against such unpaid balances and by
adding unpaid finance charges, in each case, as of the date posted to
my Account and by adding new cash advances as of the date of the
transaction.
b) You multiply the Monthly Periodic Rate times the Average Daily Balance of
Previous Billing Cycle Cash Advances. The Average Daily Balance of
Previous Billing Cycle Cash Advances is the sum of the unpaid balances
of cash advances itemized on my last billing statement on each day of the
billing cycle covered by my last billing statement divided by the number
of days in the billing cycle. Such unpaid balances are determined by
deducting payments and credits applied against such unpaid balances
and by adding unpaid finance charges, in each case, as of the date posted
to my Account and by adding new cash advances as of the date of the
transaction.
c) You may also charge a one-time Finance Charge for cash advances
equal to 3% of the amount of each new cash advances, with a minimum
Finance Charge of $10.00 (except for cash advances which are made in
respect of convenience checks or checks I have written on my business
checking account with the Credit Union as an overdraft to this Account).
This charge may result in an Annual Percentage Rate for cash advances
which is higher than the Corresponding Annual Percentage Rate.
d) You add the amounts determined under a), b) and c) to obtain the
Finance Charge on Cash Advances.
3. All forms of cash advances, including the use of Convenience Checks
or overdrafts to your Credit Union checking account, regardless of the
purpose for which used, shall be subject to the Finance Charges as set
forth above.
E. Monthly Periodic Rate (MPR) and Corresponding Annual Percentage
Rates (APR): The following interest rates apply as of June 1, 2015:
		
VISA Business Platinum

(Variable) APR

MPR

13.65%

.99%

F. Interest Rate Adjustment Event: An Interest Rate Adjustment Event will
occur whenever my Account is two (2) Minimum Payments Past Due. You
will change my interest rate to a fixed rate of 18% Annual Percentage Rate
which is a Monthly Periodic Rate of 1.50% on the first day of the billing
cycle following the cycle that was two (2) Minimum Payments Past Due.
Then, after 12 consecutive billing cycles of my Account being no more
than one Minimum Payment Past Due, you will change the interest rate

to my original rate (the Annual Percentage Rate that was applicable to my
account at the time it was opened and my subsequent modifications to
this rate). The Monthly Periodic Rate and Annual Percentage Rate change
to the original rate will become effective the first day of the billing cycle
following the 12th consecutive billing cycle.
G. Periodic Billing Statements: If I have a balance on my Account at the
end of a billing cycle, you will furnish a periodic billing statement (normally
monthly) itemizing my purchases, advances and where applicable previous
payments.
H. Minimum Payment: I agree to pay each statement by remitting to you
(within 25 days from the date of the billing statement’s closing date) the
required minimum payment due, which will be the greater of 3% of the
outstanding balance on my Account or $25.00, or the entire outstanding
balance if it is $25.00 or less. I have the option of making larger payments
on the Account at any time without penalty.
I. Fees and Charges:
1. Late Payment Fee: My Minimum Payment Due will be past due if it is
not received by you on or before the Payment Due Date shown on each
monthly statement. A fee of $28.00 will be charged to my Account, if
at least the Minimum Payment Due, including unpaid payments, is not
received by you within 10 days after the Payment Due Date.
2. Over-limit Fee: If the balance on my account at the end of a billing
cycle exceeds my maximum credit limit a $15.00 fee will be charged
to my Account. If my Account remains over-limit in subsequent billing
cycles, an additional over-limit charge will be posted on the billing date.
3. Annual Fee: There is no annual fee for the Business Platinum Credit
Card.
4. Returned Payment Check Fee: If I make a payment by check and the
check is returned unpaid for any reason, my Account will be charged
$35.00 for each returned check.
5. Returned Convenience Check Fee. If I want a Convenience Check
and it is in excess of my available credit, my payments are not current,
or you have canceled my Account, it may be returned and my Account
will be charged $35.00 for cash returned Convenience Check.
6. Stop Payment Fee. If I am issued Convenience Checks to access my
Account and I stop payment on a check, my Account will be charged
$35.00 for each stop payment.
7. Fee for Documents: If I request a copy of a charge slip, billing statement, or other document not in connection with a billing error, you may
charge my Account $6.00 for each copy.
8. Replacement or Additional Card Fee: If I request an additional card to
replace the card initially issued to me, for any reason other than the card
not being received by me or a defect in its manufacture, or if I request a
card for an additional user on my account, you may charge my Account
$15.00 for each card.
J. Convenience Checks: I may request convenience checks, which I may
write against the available credit on my Account. Each time I write a check
against my Account, I authorize you to pay the check when it is presented
to you. I understand that you will pay checks unless the balance on my
Account exceeds the available credit, my payments are not current, or
you have canceled my Account for any reason. If I obtain or request any
advance in excess of my available credit, you may (but not obligated
to) honor the transaction and extend credit to me even though this will

cause my balance to exceed by limit; and I agree, immediately upon your
demand, to repay to you all amounts you have advanced in excess of my
available credit.
K. Charges Made in Foreign Currency: If I incur a charge in a foreign
currency, the charge will be converted by VISA International into a United
States Dollar amount. VISA International will use the procedures set forth
in its Operating Regulations in effect at the time that the transaction is
processed. Currently those regulations provide that the currency conversion
rate to be used is either a wholesale market rate or a government mandated
rate in effect one day prior to the processing date, increased by 1%. The
currency conversion rate in effect on the processing date may differ for the
rate in effect on the transaction date or on the posting date.
L. Application of Payments: I agree to make all payments on my account in
United States Dollars which you will apply in the following order: (a) to the
outstanding balance of the cash advance and loan advance transactions
made from my Account; (b) then to the outstanding principal balance of the
purchase advance transactions made from my Account. If the payments
and credits received by you within 25 days from the billing date total less
than the New Balance, or if a portion of the New Balance includes cash or
loan advances, the next periodic statement will include a finance charge
which I agree to pay.
M. Events of Default: I will be in default under the Account and Agreement
if any of the following events shall occur: (a) If I fail to comply with the
minimum payment or any other terms or conditions of this Agreement or
on any other obligation I have or will have with you; (b) if I try to exceed
my credit limit without your permission; (c) if I have made any false or
misleading statements on any credit application submitted to you; (d) if
I should die or become insolvent; (e) if a petition should be filed or other
proceedings should be started under the Federal Bankruptcy Code, by
any authorized signer on the Account, whether or not you have been listed
as a creditor; (f) if a Receiver should be appointed or a writ or order of
attachment, levy or garnishment should be issued against me or any of my
property, assets or income; or, (g) if you should consider that any debts
due under this Agreement unsafe or not completely secure or if you should
believe, in good faith, that the chances of my paying or performing all of
my obligations under this Agreement have been impaired.
If default occurs under this Agreement, you may, at your option, without
notice to me, terminate this Agreement, revoke my right to use the Card,
and demand that I pay you immediately all sums which I owe you. Interest
will continue to accrue at the contract rate after default.
N. Right of Set-Off: I understand that you have the right to deduct any
money I owe you for any Minimum Periodic Payment more than 10 days
past due or the entire Outstanding Balance (if this has become due for any
reason) from my account(s) I have at any of your offices or from any money
I have coming from you for any reason, for example, if you are indebted to
me because of a Certificate of Deposit, Bond, Note or other instrument I
have obtained from you.
O. Collection Costs: I agree that if you assign my Account to an independent collection agency, or file a lawsuit to collect amounts I owe you, that
I will pay all costs, disbursements and reasonable attorneys’ fees incurred
by you in legal proceedings to collect or enforce my indebtedness in the
event of delinquency by me or in the event of a breach of any obligation by
me, whether or not a lawsuit is filed.
P. Ownership of Card: Any Card or other credit instrument which you supply
to me is your property and must be returned to you immediately upon
demand or upon notice of cancellation of my Account.

